<html>
<title> - THE DHS INTELLIGENCE ENTERPRISE: PAST, PRESENT, AND FUTURE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
       THE DHS INTELLIGENCE ENTERPRISE: PAST, PRESENT, AND FUTURE

=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 1, 2011

                               __________

                           Serial No. 112-27

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Jackie Speier, California
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Henry Cuellar, Texas
Ben Quayle, Arizona                  Brian Higgins, New York
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Kevin Gundersen, Staff Director
                    Alan Carroll, Subcommittee Clerk
              Stephen Vina, Minority Subcommittee Director


                            C O N T E N T S



                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     1
The Honorable Jackie Speier, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     3

                                Witness

Ms. Caryn A. Wagner, Under Secretary, Office of Intelligence and 
  Analysis, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     7
Rear Admiral Thomas Atkin, Assistant Commandant for Intelligence 
  and Criminal Investigation, U.S. Coast Guard...................    11
Mr. Daniel Johnson, Assistant Administrator for Intelligence, 
  U.S. Transportation Security Administration....................    13
Mr. James Chaparro, Assistant Director for Intelligence, U.S. 
  Immigration and Customs Enforcement............................    15
Ms. Susan Mitchell, Deputy Assistant Commissioner, Office of 
  Intelligence and Operations Coordination, U.S. Customs and 
  Border Protection..............................................    17


       THE DHS INTELLIGENCE ENTERPRISE: PAST, PRESENT, AND FUTURE

                              ----------                              


                        Wednesday, June 1, 2011

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Cravaack, Quayle, Speier, 
and Cuellar.
    Mr. Meehan. The Homeland Security Subcommittee on 
Counterterrorism and Intelligence will come to order.
    The subcommittee is meeting today to hear testimony on 
``The DHS Intelligence Enterprise--Its Past, Present, and 
Future.'' I want to express my deep appreciation to each and 
every one of you for coming forward today and your prepared 
testimony.
    We are dealing with the realities of Congress right now and 
the vote schedule, so we are going to do our best to try to get 
in as much as we can in the form of your direct testimony. 
Ideally, we will be able to see what it takes with regard to 
what should be a quick vote procession, and then I know I will 
return and I suspect others. Hopefully we can ask if you would 
stay for any questions that may arise on this very, very 
important topic.
    So I would like to welcome today's witnesses to discuss the 
growth and future of the DHS Intelligence Enterprise.
    Before we begin today, I would like to take a moment to 
send my heartfelt condolences to one of our subcommittee 
members--I know that he is here today; I don't know if he is 
going to be able to make the hearing--Billy Long from Missouri.
    Representative Long represents Joplin, Missouri. I know 
many of you who deal with homeland security are very well aware 
of the devastation by that tornado last week. I know I speak 
for all Members of the subcommittee when I say our thoughts and 
prayers are with Billy and the people in his district and the 
great people throughout Joplin in this difficult time.
    As we all know, the Department was created in response to 
the 9/11 attacks and consisted in the merging of 22 different 
agencies. There has been great progress on solidifying our 
homeland, but more work remains.
    I have personal experience with the DHS Intelligence 
Enterprise, having been sworn in as United States attorney for 
the Eastern District just days after 9/11. I worked closely 
with many of the DHS entities on a variety of issues during my 
time in office.
    With four terrorist attacks against our homeland since 9/
11, multiple disrupted plots, and dozens of individuals 
indicted on terrorism charges, the threat to our homeland 
remains at an all-time high and is more diverse than ever. Even 
with the death of Osama bin Laden, we continue to face serious 
threats from terrorist groups, who are attempting to deploy 
foreigners and Americans to our homeland to conduct attacks.
    In addition, today we face a significant threat from 
radicalized individuals in the United States, including United 
States citizens who have lived here their entire lives and yet 
are still drawn to the ideology and conduct attacks. Most 
notable among these include U.S. Army Major Nidal Hasan, Times 
Square bomber Faisal Shahzad, and the New York City Subway 
bomber Najibullah Zazi.
    In today's 112th Congress, this subcommittee has been 
threat-focused. Members have learned about the terrorist threat 
from Yemen, Pakistan, and counterterrorism ramifications of 
unrest in the Middle East and North Africa. Today, I look 
forward to learning more about what the men and women in the 
Department of Homeland Security, on the front lines, are doing 
in this war against terrorism.
    Our Customs and Border Patrol officers and Border Patrol 
agents are charged with preventing foreign terrorists and 
weapons from illegally entering the country. TSA officers are 
tasked with preventing terrorists from boarding our aircraft, 
which is the obsessive target of al-Qaeda since its inception. 
In fact, both myself and Ranking Member Speier have major 
international airports in our districts, so we know first-hand 
the challenges facing aviation security.
    The ICE agents are responsible for ensuring individuals who 
remain in the country illegally are apprehended and removed. 
The Coast Guard is tasked with protecting ports and other 
critical infrastructure, including an oil refinery and other 
critical assets in my own area, the Delaware River in my 
district.
    The men and women of DHS law enforcement, the boots-on-the-
ground operators, rely heavily on intelligence to help them do 
their jobs, which includes everything from identifying 
suspicious individuals to tracking hundreds of thousands of 
shipping containers around the world. Ensuring a robust system 
of collaboration, information sharing, and analytic excellence 
across the Department Intelligence Enterprise is critical.
    The DHS Intelligence Enterprise has developed and changed 
dramatically over the years, and we are here today to 
understand where we have been, where we are today, and where we 
should be going. My hope is that this will be an in-depth 
discussion of the strengths and weaknesses of the DHS 
Intelligence Enterprise so that Members leave here with an 
understanding of the positive developments, of which there have 
been many, and a sense of the challenges that still remain.
    Through the course of today's hearing, I also hope to learn 
about the level of cooperation and coordination among the 
component intelligence elements, how law enforcement and 
intelligence information is being shared and fused to create 
first-rate homeland security intelligence projects.
    Just on a last note, Secretary Wagner, I know that you are 
aware that I sent a letter to Secretary Napolitano, DNI 
Clapper, and Attorney General Holder with various questions 
regarding the treasure trove of intelligence gathered in the 
UBL raid. I want to do everything to ensure this college 
library of intelligence gets to the State and locals and on the 
front lines of the operators of DHS. I look forward to 
receiving a written response to that letter. But please let me 
know how we can help you in any way in moving forward on that 
important issue.
    So I look forward today to hearing from today's witnesses.
    I would like now to recognize the Ranking Minority Member 
of the subcommittee, the gentlewoman from California, Ms. 
Speier, for any statement she may have.
    Ms. Speier. Thank you, Mr. Chairman, for holding this 
hearing today on the Department of Homeland Security 
Intelligence Enterprise. I look forward to working with you to 
continue the subcommittee's long history of oversight over the 
critical mission to coordinate the intelligence and 
information-sharing activities of the Department.
    This enterprise brings together the intelligence 
capabilities of the entire Department, from headquarters to the 
Office of Intelligence and Analysis to analysts in the field 
working on various components. We are here to examine the 
progress that the Intelligence Enterprise has made since its 
creation and to identify areas needing improvement.
    Although we have come a long way to shore up intelligence 
gaps within the Department, several incidents over the past few 
years have revealed vulnerabilities and driven home the 
importance of maturing the Intelligence Enterprise. Does DHS 
have the funding it needs to continue building its intelligence 
architecture? Does it have the buy-in from the intelligence 
community and senior leadership across the Government?
    The chief intelligence officer of the Department, Under 
Secretary Caryn Wagner, leads the DHS Intelligence Enterprise. 
I am pleased that she is with us today to discuss how the 
enterprise is maturing.
    Some challenges the chief intelligence officer and the 
Intelligence Enterprise face appear deceptively simple, like 
developing a common lexicon for all intelligence professionals 
to use Department-wide.
    Once you do that, please share that with us, because I, for 
one, continue to be challenged by many of the acronyms.
    Other challenges seem more complex, like bringing together 
components with distinct and sometimes competing priorities to 
serve the Department's large customer base.
    To what extent is intelligence analysis and information 
sharing a priority in each component? How is the Department 
reducing duplication and redundancy of effort within DHS and 
between DHS and other elements the intelligence community? How 
much money should we be devoting to this, and can be it done 
better and more efficiently?
    I am looking forward to hearing from all of the 
intelligence chiefs assembled here today to get answers to 
these questions and to see how all of you work together in this 
constrained budget environment to address the many threats to 
our homeland security.
    Documents combed through in the aftermath of the bin Laden 
operation have underscored how critically important it is for 
all the components, even with their unique missions, to work 
together. Letters attributed to bin Laden and his lieutenants 
have identified targets in major cities from coast to coast, 
and we know al-Qaeda was looking at our rail, aviation, and 
energy sectors.
    Do we have the right policies in place to permit the 
sharing of sensitive information while also protecting the 
privacy and civil liberties of U.S. citizens? Do we have the 
right technologies to allow the components to adequately 
communicate with their partners within DHS and the intelligence 
community, as well as State, local, and Tribal partners and the 
private sector?
    After this hearing, we expect to have a much better picture 
of the accomplishments and current capabilities of the DHS 
Intelligence Enterprise and, more importantly, how we can help 
you address your critical needs and meet your goals in the 
future.
    I would like to thank all the witnesses for being here 
today. While many of your accomplishments are designed to go 
unnoticed, know we appreciate your tireless efforts to keep 
America secure.
    I yield back.
    Mr. Meehan. I thank you, Ms. Speier.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    We are pleased to have five distinguished witnesses before 
us today on this very, very important topic. So let me remind 
the witnesses that their entire written statement will appear 
in the record. I hope you will allow us to understand the most 
critical points of your testimony and do your best to try to 
work with us on the time deadlines, as well.
    Today's first witness is Under Secretary and Chief 
Intelligence Officer Caryn Wagner from the Department of 
Homeland Security's Office of Intelligence and Analysis.
    Under Secretary and CINT, we call it, Wagner--that is--how 
do you--it is CINT? Okay. I just need to make sure--was 
confirmed in her present post by the Senate in February 2010.
    Before that, she led a storied and distinguished career as 
a public servant, first as the signals intelligence and 
electronic warfare officer in the United States Army and, 
later, on the staffs of the House Permanent Select Committee on 
Intelligence, at the Defense Intelligence Agency, and the 
Director of National Intelligence.
    Under Secretary Wagner also holds a Bachelor of Arts degree 
in English and history from the College of William and Mary and 
a Master of Science degree in Systems Management from the 
University of Southern California.
    Under Secretary Wagner, you are now recognized to summarize 
your testimony.

   STATEMENT OF CARYN A. WAGNER, UNDER SECRETARY, OFFICE OF 
   INTELLIGENCE AND ANALYSIS, DEPARTMENT OF HOMELAND SECURITY

    Ms. Wagner. Thank you, Mr. Chairman.
    Chairman Meehan, Ranking Member Speier, and distinguished 
Members of the committee, I am honored to appear before you 
today to discuss the DHS Intelligence Enterprise in the company 
of some of my key colleagues from the Homeland Security 
Intelligence Council. I view this hearing as a valuable 
opportunity for us all to update you on how we increasingly 
operate as a partnership to provide the best possible 
intelligence support to the Department, the intelligence 
community, and our many and varied external customers.
    Let me start with a few definitions since this can get 
confusing. I think you already have it, but the DHS 
Intelligence Enterprise consists of all elements of the 
Department that are engaged in directing, collecting, 
reporting, processing, analyzing, and disseminating 
intelligence and information in support of the Department's 
many missions, as outlined in the Quadrennial Homeland Security 
Review.
    The Homeland Security Intelligence Council, or HSIC, 
acronym No. 2, is basically the board of directors of the 
Intelligence Enterprise. It is comprised of the heads of the 
intelligence elements of the components and other key members 
of the Intelligence Enterprise, such as the National Protection 
and Programs Directorate, which is responsible for 
infrastructure protection and cybersecurity.
    I chair the HSIC in my role as the chief intelligence 
officer, or CINT, for the Department, a role that was created 
in 2005 and formalized in legislation in the implementing 
recommendations of the 9/11 Commission Act of 2007. As the CINT 
and as chair of the HSIC, I am responsible for overseeing the 
Intelligence Enterprise and performing a few key functions:
    First, reviewing the intelligence budgets of the components 
to ensure that they are adequate and not duplicative and 
advocating for component intelligence needs within the larger 
Department budget bill; second, identifying areas where the 
enterprise would benefit from standardized policies, practices, 
and procedures, and working with the HSIC members to develop 
and implement them; and, third, leveraging the expertise of the 
HSIC members to collectively address crosscutting intelligence 
topics and issues in support of Department missions.
    To speak very briefly to each of these functions, I 
recently received the fiscal year 2013 budget briefings from 
the key components, and I am working on crafting my response 
and my input to the Secretary for the Department's resource 
allocation plan. Because I wear another hat--in addition to 
Under Secretary for Intelligence and CINT, I am also the 
Department's information-sharing executive--I have the 
opportunity to weigh in on both the information-sharing and 
intelligence portfolios as part of the budget build. As you 
know, those two portfolios are closely related.
    The review process allows me to identify and act on 
capability gaps. As an example, in the fiscal year 2012 budget 
request that is currently on the Hill, I have put an initiative 
in there to provide additional personnel for U.S. Citizenship 
and Immigration Services, a member of the HSIC who is not with 
us today, to assist them in reviewing the voluminous holdings 
of immigration data in response to a growing number of requests 
from law enforcement and National security queries.
    As for the standardized policies and processes, I want to 
highlight just a couple of those. First is our collective 
effort to standardize and improve our Homeland Security 
Intelligence Reports, or HIRs. After much discussion and 
examination of the varying processes across the enterprise, we 
developed a phased approach for transitioning to an enterprise 
process that will standardize thresholds, time lines, and 
training, and streamline the review and clearance process while 
ensuring compliance with all existing laws and policies.
    Improving HIR production across the board is important 
because HIRs are our primary method for getting the information 
that we gather in the course of performing our many missions to 
our partners in the law enforcement and intelligence 
communities, who can then use them in support of their own 
missions. You may hear more about HIR reporting from Mr. 
Chaparro because ICE is an enterprise best practice in terms of 
HIR reporting.
    We are also using the HSIC to develop a Department-wide 
counterintelligence strategy--something that, unfortunately, we 
were lacking in the past. We have created a counterintelligence 
working group under the HSIC which is made up of the 
Department's CI representatives. In some cases, these 
representatives are the first ever in their components. So this 
group is going to report back to the HSIC on the strategy and 
develop plans for phased implementation of a new CI strategy 
across the Department.
    Another area where we are developing an enterprise approach 
is production management. As Congresswoman Speier asked, we are 
frequently asked about duplication and redundancy in the 
Department. It is, in fact, hard to have too much duplication 
because the missions of the various components are so distinct. 
But in the area particularly of CT threat, we definitely do 
need to coordinate and deconflict our efforts.
    So we produced our first program of analysis in 2010, which 
laid out our 17 key intelligence questions and the planned 
analysis and production in response to those questions. The 
first one was drafted by I&A and coordinated with the 
components, but it was largely an I&A document. The second one 
that we are kicking off now is intended to be a true enterprise 
document, developed collaboratively from the beginning, and 
articulating who is going to produce what on the full range of 
Department missions and threats to homeland security.
    Finally, a couple of examples in the area of collaborative 
focus on specific intelligence issues. Without going into 
classified details, we have put teams together on an ad-hoc 
basis to focus on things like spikes in the apprehension of 
specific groups along the border arriving without 
documentation, to try to figure out why and how they have 
arrived at the border and what their origins and motivations 
are. We had a very successful working group that focused on 
capabilities and gaps in discovering tunnels under the 
Southwest border. We have also put together a group to red team 
terrorist tactics, in cooperation with our interagency 
partners, as a way of ensuring that we and our State and local 
partners were planning for and implementing the most effective 
protective measures.
    The bottom line is that the HSIC and the DHS Intelligence 
Enterprise are force multipliers. We all do a better job when 
we work together, and we are getting better at working 
together. We also take it to the next level and work closely 
with our interagency partners, particularly at NCTC and FBI.
    Finally, I would just say, if you forgive my analogy, 
homeland security is a team sport, and I am pleased to be here 
with my colleagues and teammates to answer your questions.
    [The statement of Ms. Wagner follows:]
                 Prepared Statement of Caryn A. Wagner
                              June 1, 2011
    Chairman Meehan, Ranking Member Speier, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today to discuss my role as the Department of Homeland Security (DHS) 
Chief Intelligence Officer (CINT) and the collaborative efforts of the 
DHS Intelligence Enterprise.
    DHS is a complex organization with a broad, diverse set of 
missions. Intelligence is an important supporting factor in most, if 
not all, of these missions. Departmental intelligence programs, 
projects, activities, and personnel--including the intelligence 
elements of our seven key operational components, as well as the Office 
of Intelligence and Analysis (I&A)--make up the DHS Intelligence 
Enterprise (IE). I&A is charged with ensuring that intelligence from 
the DHS IE is analyzed, fused, and coordinated to support the full 
range of DHS missions and functions, as well as the Department's 
external partners. The operational components, most of which predate 
the creation of the Department, have intelligence elements that provide 
support tailored to their specialized functions and contribute 
information and expertise in support of the Department's broader 
mission set.
    The Homeland Security Act of 2002 made the then-Assistant Secretary 
for Information Analysis responsible for establishing intelligence 
collection, processing, analysis, and dissemination priorities, 
policies, processes, standards, guidelines, and procedures for the 
intelligence components of the Department. As part of the Department's 
2005 Second Stage Review, the Assistant Secretary was designated as the 
DHS Chief Intelligence Officer (CINT) to accomplish that mandate. The 
Assistant Secretary was subsequently elevated to Under Secretary for 
Intelligence and Analysis (U/SIA) by the Implementing Recommendations 
of the 9/11 Commission Act of 2007, which also strengthened the 
influence of the CINT role.
    The CINT is responsible for leading and managing the activities of 
the DHS IE, and furthering a unified, coordinated, and integrated 
intelligence program for the Department. One of the CINT's first 
leadership actions was to develop Management Directive (MD) 8110, which 
delineates the CINT's authorities to oversee, define, and evaluate the 
Department's intelligence activities and services. As a result of the 
Implementing Recommendations of the 9/11 Commission Act of 2007, the 
heads of DHS intelligence components are required to advise and 
coordinate with the CINT to support the mission of the Department.
    The CINT provides planning and programmatic guidance to the IE, 
conducts programmatic reviews, and provides formal input to the 
Secretary regarding intelligence-related budget requests from the 
Components. The CINT's planning and programmatic guidance focuses 
Departmental resources and efforts toward priority intelligence and 
information-sharing needs to expand enterprise capabilities, develop 
capacity, and improve intelligence support to the DHS IE. In 2012, the 
CINT focus areas are training, secure connectivity, and collaboration 
across the IE.
    To ensure the DHS IE works together to support the DHS mission, the 
CINT regularly engages with the Components through weekly secure video 
teleconferences (SVTCs) to coordinate on threat reporting and planned 
production. Perhaps the most important and successful integration 
mechanism the CINT employs, however, is the Homeland Security 
Intelligence Council (HSIC).
    The HSIC was created in 2005 to serve as the DHS IE's decision-
making and implementation oversight body. The HSIC is composed of the 
heads of DHS's intelligence components. HSIC members provide advice and 
assistance; coordinate the implementation of programs; and report to 
the CINT on intelligence matters related to: (a) Strategy and policy, 
(b) leadership and coordination, (c) training and career development, 
(d) budget, management, and implementation, and (e) evaluation and 
feedback. The HSIC is empowered to establish subordinate boards and 
working groups to accomplish its oversight and program coordination 
responsibilities.
    The HSIC meets monthly to discuss current issues, receive 
strategic-level information briefings, and provide guidance. This forum 
provides a regular opportunity for HSIC members to inform and solicit 
feedback from their counterparts on new initiatives and to provide 
updates on existing programs. Subordinate working groups provide 
periodic updates on their progress and accomplishments.
    HSIC working groups are established as needed to address the 
dynamic requirements of the DHS IE. Chaired by the members of the DHS 
IE, the working groups are charged with developing action plans based 
on guidance from HSIC. Working groups can be short- or long-term, and 
focus on systemic and programmatic issues or on substantive 
intelligence topics. For example, the HSIC helped develop specific 
questions for U.S. Customs and Border Protection (CBP) officers to ask 
certain types of travelers or border crossers, and to identify 
intelligence and technology gaps to support counter-tunnel 
investigations and operations. In addition to coordinating the monthly 
HSIC meeting and following up on HSIC working group programs and 
activities, the CINT staff collects input from the DHS IE for 
compilation into two reference tools, the Intelligence Enterprise 
Catalog (IEC) and the Homeland Security Intelligence Priorities 
Framework (HSIPF).
    The IEC contains information on DHS IE assets, capabilities, and 
resources around the country and the globe. While not yet 
comprehensive, it serves as a useful reference point for the CINT and 
DHS IE when making decisions related to resource planning and current 
operations. The HSIPF aggregates the DHS IE's intelligence priorities 
for the CINT to help the HSIC make informed IE-wide planning decisions. 
It serves much the same purpose for the DHS IE as the National 
Intelligence Priorities Framework (NIPF) does for the National 
intelligence community. We continually refine the HSIPF to ensure it 
accurately captures DHS IE priorities and aligns most effectively with 
the NIPF.
    As post-9/11 operational necessity drove DHS' formation from 
disparate legacy agencies, complex new departmental responsibilities 
obliged us to work together in enterprise fashion and forge a 
collaborative OneDHS intelligence culture. The DHS IE leaders 
represented on the HSIC have contributed their operational component 
experience and perspective to shape innovative intelligence methods in 
support of Departmental policy, programs, and operational needs. The 
following initiatives and programs are outgrowths of the cooperative, 
collegial spirit of the DHS IE as embodied in the HSIC.
                    dhs terrorism task force (dttf)
    The acting CINT stood up the DHS Terrorism Task Force (DTTF) to 
bring together representatives from across the DHS IE to rapidly 
disseminate information, garner feedback and/or solicit input to 
strategic-level issues.
    The DTTF, which is led by U.S. Immigration and Customs Enforcement 
(ICE), ensures that all information resident in each of the Components' 
unique systems is identified and shared within the Department and the 
IC. The DTTF hosts a weekly SVTC to discuss current intelligence and 
threat updates, ensuring that the DHS IE is operating in unity to 
achieve the Department's mission.
    The DHS Watchlisting Cell (WLC) was established within I&A in 
October 2010 to serve as the focal point for Department-wide watchlist 
nominations to the National Counterterrorism Center and the Terrorist 
Screening Database (TSDB). The WLC reached full operational capability 
on January 31, 2011. The WLC was placed in the DTTF to leverage 
established channels of communication with the Components and because 
of the time-sensitive aspect of watchlisting.
    The WLC is an improved construct to fulfill requirements directed 
by Homeland Security Presidential Directive 6, which states that every 
department or agency in the Executive branch must have a mechanism in 
place to nominate for watchlisting all identifying and/or derogatory 
information on known or suspected terrorists in its possession. The WLC 
leverages intelligence and operations elements throughout DHS to ensure 
that all nominations are comprehensive; transmitted in a timely, 
coordinated, and standardized manner; and meet established criteria for 
submission to NCTC.
                    homeland intelligence reporting
    In 2010, the HSIC established the Homeland Security Intelligence 
Report Working Group (HIRWG) to evaluate and optimize the production, 
review, and publication process of the Department's intelligence 
reports. Until the establishment of the working group, there was no 
DHS-wide policy for intelligence reports addressing component-specific 
limitations, statutory obligations, mission-specific needs, or 
production prioritization methods. DHS IE components noted that 
reporting thresholds were being applied inconsistently or subjectively, 
often hampering reporting time lines, production rates, and 
collaborative efforts. Additionally, there were no standardized or 
written processes for the writing, production, submission, or clearance 
of intelligence reports. Through a phased approach, the HIR-WG 
completed a comprehensive review of the existing HIR program, 
processes, and policies gathered from existing documentation, working 
group meetings, interviews, and surveys. Additionally, the HIR-WG 
examined the efficiency and effectiveness of the current operating 
models, the review and clearance process, reporting thresholds and 
definitions. Subsequent findings have led to the formation of 13 
recommendations designed to establish training/certification, 
dissemination, auditing, and reporting threshold standards across the 
DHS IE. These improvements championed by the HSIC help to guarantee 
that our internal and external stakeholders receive key threat 
information in a timely manner, while ensuring compliance with all 
applicable laws and policies. Intelligence reports are our primary 
vehicle for communicating information collected by the DHS IE to the 
broader intelligence community for incorporation into all-source 
products.
                             ctab and ntas
    The Counterterrorism Advisory Board (CTAB) is the Department's 
mechanism for coordinating and integrating all aspects--intelligence, 
operations, and policy--of its counterterrorism mission, which spans 
operational components and headquarters elements. The Secretary 
appoints a Coordinator for Counterterrorism to chair the CTAB--
currently the Under Secretary for the National Protection and Programs 
Directorate--while the Under Secretary for Intelligence and Analysis/
CINT and Assistant Secretary for Policy are vice-chairs. The CTAB is 
also responsible for recommending to the Secretary that an alert be 
issued under the National Terrorism Advisory System (NTAS). The CINT, 
working with the DHS IE, is responsible for monitoring threats to the 
homeland to determine if it reaches a level of specificity that might 
merit convening the CTAB to discuss issuing such an alert. When that 
happens, the CINT will consult both internally and externally to the 
Department before recommending that the CTAB be convened. The HSIC will 
serve as the mechanism for ensuring that key components are fully 
involved in the threat recommendation to the CTAB.
                   counterintelligence working group
    The HSIC Subcommittee on Counterintelligence (the CI Working Group 
or CI-WG) supports the development of CI policies and procedures across 
the Department. Component representatives meet monthly to identify 
those areas requiring immediate attention and to establish necessary 
DHS-wide CI policy, instructions, and procedures. By integrating the 
analytical and operational elements of DHS's CI Program, the CI-WG 
postures the Department to effectively identify, understand, and 
counter foreign intelligence activities.
    The Secretary has directed I&A to lead the Department's 
counterintelligence program. The CIWG is working in concert with the 
Office of the Director of National Intelligence to establish a CI-
focused Insider Threat Program, which includes an IT-enabled audit/
monitoring capability, and is standardizing CI awareness training. The 
CI-WG has also developed a CI Program Directive, codifying the 
Secretary's decision to consolidate the Department's CI effort, and 
drafted a CI Implementing Instruction and CI Security Classification 
Guide. These documents will further help integrate Component efforts 
and execute an effective CI program across the Department.
               intelligence career force management board
    The Intelligence Career Force Management Board (ICFMB) is comprised 
of both human capital and professional development personnel from 
across the DHS IE. Charged with providing strategic direction and 
guidance in managing the DHS intelligence workforce, the board 
successfully produced a plan of action to address the Department's high 
intelligence workforce turnover rates, uneven training, and lack of 
career development tools. The plan of action includes 11 initiatives 
aimed at reenergizing and refocusing the workforce through the 
establishment of cross-component career paths, common hiring standards, 
integrated training and training resources for common functions, and 
shared career development tools. These initiatives continue to support 
and move the DHS IE closer to its vision of a unified, diverse, agile, 
responsive, trained, and mission-ready DHS IE workforce, capable of 
supporting the many missions and operations of the Department, as well 
as the Department's State, local, Tribal, territorial, private sector, 
and intelligence community customers.
    Currently, the Board is working to complete a DHS IE curriculum 
assessment, which will provide a 3-year outlook on course offerings, 
training requirements, and required resources for DHS IE leadership 
planning and budgeting purposes. The Board is also developing a 
baseline GS-0132 job description and a standard, anonymous exit 
interview that will give managers across the DHS IE greater insight 
into how, as an enterprise, we can strengthen our workforce.
                        the future of the dhs ie
    The next frontier for the DHS IE is to begin to undertake 
enterprise-wide planning. This year will mark the first time the entire 
DHS IE will collaborate to produce a single Program of Analysis, which 
will help to ensure that, with respect to analytical efforts, 
redundancies are avoided, opportunities for collaboration are 
identified from the outset, and any overlap is carefully considered in 
light of the different approaches each Component may choose to take on 
a specific issue. The goal is to ensure that the DHS IE expends its 
intelligence resources in an effective and efficient manner and that 
all mission requirements are adequately covered. Also, as recommended 
by CBP, we are currently exploring the feasibility of a Departmental 
intelligence doctrine.
    The development and acquisition of new intelligence tools and 
systems is an area for additional collaboration. We are making great 
strides retrofitting existing databases and networks to interoperate 
across the DHS IE; the next step is to more closely coordinate our 
planning for new systems to ensure they are built from the ground up to 
be more collaborative.
                               conclusion
    Since the establishment of the DHS CINT, Departmental intelligence 
integration and efficiency has continuously improved, providing 
increasingly unified intelligence support to the DHS mission. Key to 
these improvements has been the HSIC, which serves as the main unifying 
and integrating body of the DHS IE. Using this forum, senior 
intelligence leaders from across the Department have worked to educate 
each other on the individual intelligence component missions and 
functions to better identify areas of improvement and opportunities for 
cooperation. The HSIC allows the DHS IE to synergize our missions, 
especially in the areas of counterterrorism and border security. 
Working with our partners in the intelligence community, the CINT leads 
and manages the activities of the DHS IE, and furthers a unified, 
coordinated, and integrated intelligence program for the Department. It 
is through the collaborative efforts of the DHS IE that we leverage our 
collective strengths and proactively provide intelligence that supports 
the Department's mission to secure the homeland. This partnership is a 
valuable asset that we must vigilantly cultivate and promote to ensure 
its success.
    Thank you for the opportunity to testify before you today. I would 
be happy to answer any questions you may have at this time.

    Mr. Meehan. Thank you, Under Secretary Wagner, for your 
testimony.
    Our next witness will be Rear Admiral Thomas Atkin of the 
United States Coast Guard.
    The assistant commandant for intelligence and criminal 
investigations, Rear Admiral Atkin previously served as 
assistant commandant for operational policy and planning. He 
has also held the post of acting assistant commandant for 
marine safety, security, and stewardship.
    As an admiral in the Coast Guard, he additionally served as 
special assistant to the President and senior director for 
transborder security on the National Security Staff and first 
commander of the U.S. Coast Guard Deployable Operations Group, 
following a number of operational assignments throughout the 
United States.
    He is a graduate of the United States Coast Guard Academy 
with a Bachelor of Science degree in mathematical sciences and 
also holds a Master of Science in management science from the 
University of Miami.
    I also understand you may have a little interest in how the 
Coast Guard lacrosse program is doing this year.
    Well, Rear Admiral Atkin, you are now recognized to 
summarize your testimony for 5 minutes.

 STATEMENT OF REAR ADMIRAL THOMAS ATKIN, ASSISTANT COMMANDANT 
 FOR INTELLIGENCE AND CRIMINAL INVESTIGATION, U.S. COAST GUARD

    Admiral Atkin. Thank you, sir.
    Good afternoon, Chairman Meehan, Ranking Member Speier, and 
distinguished Members of the committee. Thank you for the 
opportunity to provide testimony on the Coast Guard 
Intelligence Enterprise and how we work closely with our DHS 
Homeland Security Intelligence Council partners, the DHS 
Intelligence and Analysis staff, the Customs and Border 
Protection, Immigration and Customs Enforcement, and the 
Transportation Security Administration.
    As you said already, I am Rear Admiral Tom Atkin. I am the 
assistant commandant for intelligence and criminal 
investigations.
    The Coast Guard is the lead U.S. agency for maritime 
homeland security. We are the largest maritime law enforcement 
agency in the country, and we are an intelligence community 
member. We are on watch 24 hours a day. No other department or 
agency has the authorities or jurisdiction like the Coast Guard 
that allows us to touch the maritime domain in every area.
    For more than 220 years, the Coast Guard has safeguarded 
the Nation's maritime interests on our rivers, in our ports, 
along the coastal regions, on the high seas, and around the 
world. We protect those on the sea, we protect America from 
threats delivered by the sea, and we protect the sea itself.
    The Coast Guard's persistent presence in the maritime 
domain, due to our diverse mission sets and broad legal 
authorities, allows us to fill a unique niche within the 
intelligence community. As a member of the Armed Forces, the 
Coast Guard is at the intersection between homeland security 
and National defense. As a Federal law enforcement agency and a 
National intelligence community member, the Coast Guard is also 
positioned as a bridge between these two important groups.
    Because of our unique access, our emphasis, and our 
expertise in the maritime domain, an area where other U.S. 
Government agencies are typically not present, we collect and 
report intelligence that not only supports our missions but 
supports the National security objectives.
    In August 2010, the motor vessel Sunsea, a 188-foot 
stateless bulk cargo carrier, crossed the Pacific carrying 492 
illegal Sri Lankan migrants en route to Canada. As the vessel 
transited the Pacific, the Coast Guard Intelligence Enterprise 
played a key role by enabling Coast Guard operational and 
tactical commanders to closely monitor the case, prepare 
contingency plans, and effectively position response forces in 
the event the ship attempted to reach a port in the United 
States or conditions on board deteriorated and an at-sea 
interception was required.
    This vessel was of particular concern because the smugglers 
included members of the terrorist group Tamil Tigers.
    Working with our international, Federal, and State 
partners, including the Department of Defense, we monitored the 
vessel's movements, especially as it approached U.S. territory. 
We leveraged and integrated capabilities with our National 
intelligence and law enforcement counterparts. We analyzed 
similar past cases to make boarding teams aware of the 
conditions and the responses they might encounter if they were 
given the order to interdict the vessel. We assessed the 
potential threat posed by the crew and passengers. At any time, 
this vessel could have turned into a major search-and-rescue 
case or a significant interdiction event.
    The vessel was ultimately intercepted by Canadian forces 
off the coast of British Columbia. We provided effective, 
timely, accurate, and usable intelligence to ensure our forces 
were well-informed and ready to take action. This example 
highlights our unique maritime expertise, allowing us to lead 
and assist our law enforcement National intelligence and 
international partners to identify a potential threat and work 
toward a positive solution to protect our Nation.
    To support homeland security, the Coast Guard screens 
ships, crews, and passengers for all vessels required to submit 
a 96-hour advance notice of arrivals to a U.S. port. In 2010, 
we screened more than 257,000 ships and 71.2 million people.
    We work closely with Customs and Border Protection to 
utilize their automated targeting system, which enables real-
time database checks and allows us to more easily identify 
suspected entities engaged in nefarious activities within the 
maritime domain. Our collaboration with CBP has been so 
successful that, earlier this year, we moved most of our 
screening effort to the National Targeting Center to better 
integrate our efforts with interagency personnel performing 
similar duties.
    Following screening, any informations on persons discovered 
with possible terrorism links are shared with other DHS 
components, the Department of Justice, and the intelligence 
community.
    I have only scratched the surface describing the broad 
capabilities and diverse relationships that define the Coast 
Guard Intelligence Enterprise. In our intelligence pursuits, 
the Coast Guard draws on our long and rich maritime history and 
experiences that result from our unique status as an armed 
service, a law enforcement agency, a Federal regulator, and a 
National intelligence community member.
    Each of the components that form the DHS Intelligence 
Enterprise brings something different to the table. We have 
made great strides in our collaboration through the Homeland 
Security Intelligence Council under the leadership of Secretary 
Wagner. We all understand that we are strongest when we stand 
together. We have worked to make significant progress in 
aligning our capabilities toward a common purpose: Defending 
the safety and security of the American people.
    Thank you for inviting me here to discuss the Coast Guard 
Intelligence Enterprise, DHS, and the HSIC. I look forward to 
your questions.
    Mr. Meehan. Thank you, Rear Admiral Atkin, for your 
testimony.
    Our next witness is Mr. Daniel Johnson, the assistant 
administrator for intelligence at the Transportation Safety 
Administration.
    Mr. Johnson began as assistant administrator for 
intelligence earlier this year and, prior to that, served in 
the United States Air Force. With 26 years' experience at the 
Air Force Intelligence, Surveillance, and Reconnaissance 
Agency, most recently as wing and mission commander, he stands 
as leader on National and theater ISR operations and is a 
seasoned staff officer.
    He also worked at the Pentagon on the Joint Chiefs of Staff 
as deputy director for joint requirements, oversight council, 
and targets.
    That must be quite a business card, when you have something 
like that.
    In that role, he provided intelligence support to the 
Chairman of the Joint Chiefs of Staff and Secretary of Defense.
    Mr. Johnson graduated from the Air War College at Maxwell 
Air Force Base in Alabama with a Master of Strategic Studies, 
received a Master of Public Administration from the University 
of Oklahoma, and a Bachelor's degree in public administration 
and policy from Eastern Connecticut State University.
    Mr. Johnson, you are now recognized to summarize your 
testimony. Thank you.

   STATEMENT OF DANIEL JOHNSON, ASSISTANT ADMINISTRATOR FOR 
   INTELLIGENCE, U.S. TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Johnson. Thank you, sir.
    Chairman Meehan, Ranking Member Speier, and distinguished 
Members of the subcommittee, thank you for this opportunity to 
be before you today to discuss the role of the Transportation 
Security Administration within the larger scope of the DHS 
Intelligence Enterprise.
    Since coming on board this January, I have had the 
opportunity and privilege to work closely with Under Secretary 
Wagner and my colleagues at the United States Coast Guard, 
Customs and Border Protection, and Immigration and Customs 
Enforcement, improving our internal and external collaboration 
and information sharing.
    As the assistant administrator for intelligence for TSA, I 
oversee three primary mission threads: Indications and warning; 
predictive analysis; and incident response. In accordance with 
the transportation security authorities, the TSA Office of 
Intelligence can receive, assess, analyze, and disseminate 
intelligence information for transportation security purposes 
that helps protect the 1.7 million passengers per day that use 
civil aviation, the 47,000 miles of highways, the 147 million 
maritime ferry passengers per year, the 29 million passengers 
per day that use mass transit, the 1.6 million tons per year 
traveled by freight rail, and then, last, over 2.5 million 
miles of natural gas and hazardous liquid pipelines.
    In my role as the head of intel for TSA, I am often asked 
what keeps me up at night. The answer is the global threats 
with a regional focus, coming primarily from al-Qaeda and its 
affiliate groups, who continue to pose a serious threat to 
transportation security.
    Al-Qaeda in the Arabian Peninsula, or AQAP, continues to 
threaten U.S. interests abroad and in the homeland. In 
particular, the group is fixated on aviation as a means to 
inspire fear and economically cripple the United States and 
Western interests. Through four editions of Inspire magazine, 
AQAP has referenced the October 2010 cargo plot, wrote about 
Abdulmutallab's heroism and sacrifice as the Christmas day 
bomber, and even featured an article of how to make a bomb in 
the kitchen.
    Additionally, in light of the successful Osama bin Laden 
roll-up, we continue to track seized material being exploited 
from his compound in Abbottabad and monitor existing 
transportation threat streams from al-Qaeda and its affiliates 
who may seek to accelerate existing plots, prove their mettle, 
and/or legitimize their causes.
    TSA stakeholders include the passengers that are out there 
every day, field operations, and key critical infrastructure 
security owners and operators. Our mission is to provide them 
with the highest-confidence threat reporting on the various 
modes of transportation. In order to do this, we must work 
closely with the Homeland Security Intelligence Council to form 
an internal and external bench that enables collaboration and 
transparency for all our reporting.
    Over the past 6 months, I have reached out to the HSIC 
team, along with the intel and law enforcement communities, to 
internally collaborate on various threat assessments, along 
with reaching out externally and leveraging existing analysis 
being done by partners at the National Counterterrorism Center, 
the sector government coordination councils, fusion centers, 
private trade associations, and the National Joint Terrorism 
Task Force.
    Additionally, under the leadership of Under Secretary 
Wagner, we have worked closely with DHS I&A on professional 
development and training. Within my office, we have created a 
development path that ranges from new hires to seasoned 
analysts that enables a continuous career progression. 
Similarly, we are on the ground floor of standing up our 
counterintelligence section. This will enable us to work 
closely with DHS on CI policies, instructions, and procedures.
    I look forward to continue to work with our intelligence 
partners to evolve the Intelligence Enterprise that not only 
shares data but collaborates among headquarters and components 
to enable higher confidence reporting to our stakeholders in 
the field. Within TSA, once again, there are passengers, our 
field operations, key infrastructure owners and operators.
    Thank you for this opportunity to address the subcommittee, 
and I am happy to answer any questions.
    Mr. Meehan. Thank you, Mr. Johnson. I am grateful for your 
testimony.
    Our next witness is James Chaparro, who is the assistant 
director of intelligence for the United States Immigration and 
Customs Enforcement.
    Mr. Chaparro's public service includes 20 years' 
experience, most recently as Deputy Under Secretary for 
Operations in the Office of Intelligence and Analysis. Mr. 
Chaparro also has served as the director of the Human Smuggling 
and Trafficking Center, special agent in charge of the ICE 
Denver field office, and held the position of interim director 
of immigration interior enforcement for ICE, upon the creation 
of DHS.
    Before that time, Mr. Chaparro worked with the Immigration 
and Naturalization Service as deputy assistant commissioner for 
investigations, director of anti-smuggling, and assistant 
district director for investigations and special agent.
    Mr. Chaparro also holds a Bachelor of Arts degree in 
political science from California State University at Long 
Beach.
    Mr. Chaparro, you are now recognized to summarize your 
testimony. Thank you.

      STATEMENT OF JAMES CHAPARRO, ASSISTANT DIRECTOR FOR 
     INTELLIGENCE, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT

    Mr. Chaparro. Thank you.
    Chairman Meehan, Ranking Member Speier, and distinguished 
Members of the subcommittee, on behalf of Secretary Napolitano 
and Director Morton, I would like to thank you for the 
opportunity to discuss ICE's efforts in supporting the DHS 
Intelligence Enterprise. I hope to offer the subcommittee 
somewhat of a unique perspective because I have had the 
privilege--actually, the honor--of serving in leadership roles 
in both I&A and ICE, one of the larger components of DHS.
    ICE is uniquely positioned to advance the DHS mission. We 
do this through intelligence production, through law 
enforcement investigations focusing on terrorism, human 
smuggling, human trafficking, financial crimes, trade fraud, 
weapons proliferation, drug smuggling, illegal tunneling, and 
other illicit activities, and also through the outstanding work 
done in our Office of Enforcement and Removal Operations.
    As the DHS component with the most expansive investigative 
authorities, ICE has people assigned in over 200 U.S. cities 
and in 70 offices in 48 countries around the world. ICE is both 
a vital contributor to the DHS Intelligence Enterprise and a 
voracious consumer of its products and services.
    The ICE intelligence program is structured along three 
major lines. We have the headquarters office of intelligence; 
we have field-based intelligence teams that support our field 
offices directly; and then we also have intelligence liaisons, 
who we have strategically placed with interagency partners 
around the law enforcement and intelligence community. 
Together, this combined approach really allows us to have 
people who will help serve and make sure that we have the right 
information going to the right people at the right time.
    In her opening statement, Under Secretary Wagner provided 
an expansive overview of the DHS Intelligence Enterprise. I 
would like to focus on how collaboration within that enterprise 
is progressing from the ICE perspective.
    The Homeland Security Intelligence Council, or HSIC, as 
previously mentioned by my counterparts, in my opinion, serves 
as an excellent venue to really coordinate on large strategic 
initiatives as well as making sure that we are working together 
on common threats.
    For example, ICE has leveraged the HSIC to advance 
important initiatives in the coordination of counter-tunnel 
investigations and operations. We have worked on our 
collaborative capabilities to determine and identify illicit 
smuggling pathways bringing people and goods to the United 
States illegally. Through our participation in the HSIC, ICE 
facilitates a bi-directional information flow between our field 
components, between our headquarters elements, and between our 
external partners, both domestic and overseas.
    ICE plays a critical role in support of the National 
intelligence community, as well. ICE is the leading producer of 
DHS Homeland Intelligence Reports, or HIRs, which provide 
valuable intelligence reporting from ICE operations. We 
disseminate those externally to our partners. So far in fiscal 
year 2011, ICE has accounted for about 58 percent of the 
Department's production of HIRs.
    Perhaps more importantly, however, is the fact that 54 
percent of those HIRs were evaluated by the customers as either 
``high value'' or ``major significance,'' which is very, very 
substantial in the intelligence world. The success rate of our 
reporting of HIRs I think is a commitment not only to the 
people producing them, but it is also a commitment to show that 
ICE is really committed to making sure that we are putting out 
our most valuable information so others can use it to 
strengthen National security efforts.
    ICE also has the leadership role in the DHS Threat Task 
Force, or DTTF. This is an interagency DHS entity that sits in 
the Office of Intelligence and Analysis that works to ensure 
that DHS leadership maintains situational awareness on a 
continually and rapidly evolving terrorist threat stream 
picture. We do this through the enabling of counterterrorism 
threat coordination and by producing sensitive intelligence 
assessments. ICE's participation in the DTTF also helps serve 
our needs at ICE because we are able to very rapidly glean 
information held by other DHS intelligence components, other 
DHS components, as well as the National intelligence community, 
and share that with our special agents on the ground who are 
working in JTTFs around the country to combat terrorist 
threats.
    ICE also plays an important role in the DHS information 
sharing with our Federal, State, local, and international law 
enforcement partners. We do this primarily through the Law 
Enforcement Information Sharing Initiative, or LEISI. Since its 
inception, the LEISI has entered into eight significant law 
enforcement information-sharing agreements on behalf of the 
Department of Homeland Security.
    This includes an agreement recently signed with the 
International Justice and Public Safety Network. This is an 
important point because this will enable us to share 
information with 785,000 State and local law enforcement 
officers around the country. This is something that I am very 
proud of, and I think it is an initiative that will really help 
the boots on the ground, not just in the Federal community but 
also in the State and local community.
    The importance of integrating intelligence into our 
investigations and operations cannot be overstated. Since 2006, 
DHS has leveraged the Border Enforcement and Security Task 
Forces, or BEST teams, which combine Federal, State, Tribal, 
and local and foreign law enforcement intelligence and law 
enforcement resources to synchronize efforts to combat existing 
threats. ICE intelligence provides strategic and operational 
support to the BEST teams, and we are working with I&A to 
increase the overall support addressing threats to the 
Southwest border, the Northern borders, as well as the maritime 
borders.
    ICE's Office of Intelligence also serves an important role 
in coordinating oversight of ICE's intelligence functions, and 
we serve as the primary conduit for the DHS Intelligence 
Enterprise from ICE and also from ICE operations into the 
intelligence community.
    In a rapidly changing threat environment, however, we 
cannot be complacent with our successes. We are moving forward 
by increasing our strategic intelligence production----
    Mr. Meehan. Mr. Chaparro, I am really--I actually am very 
focused on your testimony, and I appreciate it. But I am going 
to ask if what you can do is just sum it up very, very quickly 
so I can get to Ms. Mitchell. We will try to get to Ms. 
Mitchell, if she can do 5 minutes. Then that will allow us to 
conclude this part. We will go do our votes and then get back 
as quickly as we can.
    Can you give me your concluding sense on this?
    Mr. Chaparro. Certainly, Mr. Chairman.
    In sum, ICE is a valuable partner with the DHS Intelligence 
Enterprise. We take great advantage of the services that are 
provided by our partners. We utilize the information in our 
day-to-day operations.
    I look forward to answering any questions that committee 
Members may have for me. Thank you.
    Mr. Meehan. Thank you, Mr. Chaparro.
    We would like to identify our final witness, Ms. Susan 
Mitchell, the deputy assistant commissioner for the Office of 
Intelligence and Operations Coordination at Customs and Border 
Protection.
    I hope you will allow me the privilege of not sharing the 
same introduction as I did before, in the interest of time, but 
allow you to get right to your testimony.

  STATEMENT OF SUSAN MITCHELL, DEPUTY ASSISTANT COMMISSIONER, 
   OFFICE OF INTELLIGENCE AND OPERATIONS COORDINATION, U.S. 
                 CUSTOMS AND BORDER PROTECTION

    Ms. Mitchell. Thank you.
    Good afternoon, Chairman Meehan, Ranking Member Speier, and 
distinguished Members of the subcommittee. It is a privilege 
and honor to appear before you with my colleagues and to 
discuss CBP, or Customs and Border Protection's intelligence 
efforts and evolution.
    First, I would like to just highlight that, with almost 
60,000 employees, CBP makes up the largest law enforcement 
organization in the Nation and has been given the 
responsibility to protect the United States from terrorists, 
weapons of mass effect, drug and human smugglers, agricultural 
disease, among other threats, all while fostering our Nation's 
economic security and competitiveness through facilitating 
lawful international trade and travel.
    CBP provides a layered defense along nearly 7,000 miles of 
land border and along 95,000 miles of shoreline in partnership 
with the U.S. Coast Guard.
    At the core of CBP's mission is to detect and deter the 
movement of foreign terrorists and terror-related materials 
across the U.S. border. I will give you two quick examples that 
highlight CBP's efforts on this front.
    First, on December 14, 1999, CBP officers at Port Angeles, 
Washington, prevented the entry into the United States of the 
so-called millennium bomber, an Algerian al-Qaeda member named 
Ahmed Ressam, who was transporting explosive materials and 
plotting an attack on Los Angeles International Airport on New 
Year's Eve and was identified by behavioral analysis detection 
and physical examination of the vehicle he was driving.
    More recently, as you mentioned earlier, on May 3, 2010, 
CBP's National Targeting Center worked with CBP officers at JFK 
Airport to apprehend the Times Square bomber, Faisal Shahzad, 
as he was attempting to flee the United States on a flight to 
the Middle East.
    Months earlier--and that really is the key--months earlier, 
he had hit on several of our targeting rolls for Pakistan 
travel. On that trip, he changed drastically from his normal 
patterns of traveling with his family, staying and documenting 
his stay at his home, versus the documents showing on this trip 
a Motel 8, traveling alone, and changing his return, coming 
back weeks after he originally booked his return flight. We 
were the first to identify him as a certain level of concern 
and fully document his travel and his admission interview.
    After the attempted bombing, we then provided the FBI with 
the keystone to link the phone number from the person who sold 
the car to the actual suspect, providing the FBI with his name, 
picture, and address. The phone then had been obtained and 
documented during that arrival process months earlier. We then 
posted a lookout in our system, while the former watch-listing 
process was occurring. Sure enough, he hit in our targeting 
systems when he attempted to flee the country.
    Our targeting worked both on the inbound process and the 
outbound attempt. We worked closely with our DHS partner TSA 
and our local partners at JFK Airport to stop that departure, 
as he had already boarded the flight. In this case, every 
second mattered, and it highlighted the need for real-time 
targeting and cooperation between Federal, State, and local 
partners.
    In the interest of time, I will discuss targeting more when 
you get back. I just wanted to hit on--CBP's Office of 
Intelligence and Operations Coordination was established in 
2007, merging the former offices of Anti-Terrorism and 
Intelligence, as well as components of the Office of Field 
Operations, Border Patrol, and Information Technology. OIOC 
serves as the coordinating facilitator that integrates and 
leverages all CBP's diverse intelligence capabilities into a 
single, cohesive Intelligence Enterprise to create that 
intelligence-driven organization.
    We support the agency's extended zone of security through 
the use of a multilayered approach to address threats to our 
borders, consisting of collecting advance traveler and cargo 
information, the use of enhanced law enforcement technical 
collection capabilities, and productive intelligence-sharing 
relationships with Federal, State, and local/Tribal agencies 
that also maintain a law enforcement presence at our border.
    I will talk about targeting when you get back.
    Mr. Meehan. Thank you, Ms. Mitchell. Thank you kindly for 
summarizing your testimony in that fashion.
    So we have a series of three votes on the floor right now. 
The subcommittee will stand in recess until 5 minutes following 
the last vote in the series.
    [Recess.]
    Mr. Meehan. The committee will come to order.
    I want to say thank you again for your patience. I thank 
you for your testimony, as well.
    So, at this point in time, what I would like to do is to 
begin the questioning. I hope what we can do is do 5 minutes 
for each of us, and then, at the conclusion, if we have some 
remaining questions as well, because I think there is an awful 
lot of material to go through.
    So I will begin the questioning.
    Under Secretary Wagner, I am very grateful for your being 
here and for the role that you have undertaken in an agency in 
which there has been a great deal of, not just collaboration 
necessarily, but of course the role in which a number of 
agencies have been put together in an effort for us to more 
effectively and efficiently respond to the multiple challenges. 
That is difficult at any point in time. When you are talking 
about the sharing of intelligence across agencies, as well, 
difficult. I think we have made a great deal of progress in 
terms of breaking through some of the old stovepiping that 
existed, as well as some of the agency's tendency to want to 
hold on to, you know, their role and their information.
    So I am grateful for the progress that has been made, but, 
of course, we still live in a very active world in which 
information flows and the threat is immediate. So I am 
certainly aware that one of the challenges that each of us has 
is the prioritization. Some elements of our infrastructure are 
defended in-depth against attack; others, not quite so much. We 
are always constantly worried about the ability of terrorists 
to adapt to what we have to do, as well.
    We are also quite aware that there were 12 homegrown-
inspired jihadist terrorist plots just in the last year. Two 
attacks and 10 plots by American citizens--lawful, permanent 
residents of the United States--were included in that. By 
comparison, over 7 years from the 9/11 attacks, there were an 
average of only about 2 such plots a year. So we are really in 
a period of enhanced concern.
    You discussed the Department of Homeland Security's Threat 
Task Force, the DTTF, which is being brought to bear against, 
you know, specific incidents or National security 
investigations. I would really like to know what role that 
group is playing now, in light of the information that we have 
purportedly received from overseas and others with specific 
threats against some of our infrastructure.
    Ms. Wagner. Thank you, Mr. Chairman.
    I want to first just make clear that the name ``DTTF'' 
sometimes causes some confusion because it sounds suspiciously 
like the FBI's JTTF, but they really do very different things.
    The DHS Threat Task Force was created by my Principal 
Deputy, who was then the Acting Under Secretary, in the wake of 
the Zazi and Headley cases. As Jim Chaparro mentioned, it was 
created largely as a way to pull together all of the disparate 
pieces of information that were in the Department and all of 
the expertise in the Department to make sure that the 
Department leadership was up to speed on rapidly evolving 
threats.
    Since then, we have expanded the mission of the DTTF a 
little bit to be sort of the focal point of following emerging 
threats to the homeland and making sure that we have pulled all 
the right strings, touched all the right data sets, have 
reached out to our partners at FBI and the CTWatch and at NCTC 
to make sure that we are all up to speed and that we are doing 
what we need to do and everyone is on the same page. The DTTF 
is actually staffed by a mixture of I&A and component people. 
Currently, it is headed by someone from ICE.
    We beefed up the DTTF recently, on a surge basis, to be the 
focal point for dealing with the information that was flowing 
from the exploitation of material captured during the UBL raid. 
We appreciate the fact that we got extra people in from the 
components to help us deal with that. We were using the DTTF to 
be our focal point for reviewing that information and 
determining when we needed to request tear lines, working in 
partnership with FBI and NCTC, so that we could get information 
out to our State and local customers.
    Mr. Meehan. Are you satisfied that you are able to analyze 
in this treasure trove of information, that you have the 
capacity to be able to make some discretionary calls, but to be 
able to distinguish from among that trove of information and 
that there is a capacity to communicate that down appropriately 
to the local level?
    Ms. Wagner. Absolutely. I think I have rarely seen such a 
good interagency effort on this, the task force that the CIA is 
leading, on which we as a department have, I believe, seven 
people participating who are linguists, who are helping with 
the gisting and translating. There are people from all over the 
community participating in that.
    We pulled together a group to work the tear-line issue. I 
am confident that we are getting the information that we need 
that needs to be shared with our State and local partners and 
with our critical infrastructure sectors. It has actually been 
going relatively smoothly, considering the volume of 
information.
    We have been working jointly with the FBI to put out most 
of the information that we have put out. We have put out 
probably about 12, I think, joint intelligence bulletins at 
various classifications levels and to various audiences--that 
is, based on this information and in combination with other 
information that is still coming in through regular 
intelligence channels.
    Mr. Meehan. Okay. Well, thank you. My time has expired, so, 
at this point in time, I will turn to Ranking Member Speier for 
questions she may have. Thank you.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you all for your testimony. As you were all speaking, 
I was thinking once again that you really are the unsung heroes 
who do this work, go unnoticed, and yet make sure that our 
country is safer because of it. So, thank you.
    Let me start by asking you, the House is presently 
considering a $1 billion cut to the DHS budget. How will this 
impact your specific intelligence functions within your 
departments and agencies?
    If you could just go right across the line as quickly as 
you can, but make your points.
    Ms. Wagner. I will start by saying that I think that we, my 
office specifically, has fared reasonably well, and we are 
appreciative of the mark that we received from the 
appropriators. I will defer to the others on any issues that 
they have.
    Admiral Atkin. Thank you.
    My understanding is our budget has fared fairly well, as 
well, and that we aren't anticipating any major cuts at this 
time. Certainly, any major cuts would have significant negative 
impact on our ability to collect and report information.
    Ms. Speier. Thank you.
    Mr. Johnson. Ma'am, the same from TSA's perspective; we are 
doing really well.
    Mr. Chaparro. From the ICE perspective, I think that we are 
doing well.
    I would want to make sure that there are a couple of 
critical pieces that are in there. One is, we had an 
annualization of some positions for our Southwest border 
supplemental. As you know, the work we are doing on the 
Southwest border is critical. I would not want to see that 
falter. So far, we are good, and I would like to hopefully keep 
it that way.
    Thank you.
    Ms. Mitchell. CBP's intelligence capability actually also 
fared well and received a small bump up for our targeting 
capabilities, which--I think one of the things you heard today 
is that the CBP targeting capabilities really do support all of 
our partner agencies.
    Ms. Speier. So the billion dollars is not from any of your 
budgets?
    Ms. Wagner. If I could just add one thing that is not 
specifically an intelligence issue, but I think we are 
concerned about potential cuts to the grants, because the FEMA 
grant program is the source of a lot of funding for our State 
and local partners. While that is not specifically in my 
budget, we obviously are interested in ensuring that they 
receive enough funding to continue to be active participants in 
the homeland security enterprise.
    Ms. Speier. Are any of your agencies involved with 
reviewing the bin Laden treasure trove, as we tend to refer to 
it?
    You are all nodding your heads? So every one of you has a 
role in reviewing the materials. Okay.
    This is a diagram of this entity that you are all part of, 
with Under Secretary Wagner in the middle. It is somewhat 
confusing because there are straight lines and then there are 
dotted lines. It is very difficult to bring 22-plus agencies 
together under one roof that have been independent and have 
everyone work well together. So I am sure there have been many 
challenges, probably none of which you would like to discuss in 
public.
    But, as you have moved to adapt, I want to know whether or 
not there are still areas that we should be aware of, in terms 
of assisting you in unifying as a single agency?
    Ms. Wagner. One of the areas that we, I think, still 
struggle with as a department is in integrating our information 
systems. As we came from a bunch of different places, we have a 
lot of different legacy systems. The Department has a great 
deal of data--travel data, immigration data, cyber data. A lot 
of that data is resident in different little stovepipes.
    So we are working very, very diligently with the components 
and with the Department's chief information officer and then in 
my capacity, as the information-sharing executive, to work 
through how to do a better job internally of ensuring we have 
appropriate access to our data and that we are not having to 
redo functions multiple times, check individuals multiple times 
against multiple databases because they are all more linked.
    We have a ways to go before we get to that goal, and that 
is something that we are still, you know, basically working on.
    But I would offer anyone else the opportunity to comment, 
if you are interested.
    Mr. Chaparro. No, I agree with Under Secretary Wagner. I 
think one of the biggest challenges we face is the vast volume 
of data that we have to sift through in order to identify these 
sometimes very vague or amorphous threats. Having the data 
tools and the connectivity to be able to look at TSA data or to 
be able to look at intelligence community data or travel data 
and to able to do that in an integrated fashion I think is a 
challenge that we all face day-to-day.
    Ms. Speier. Anyone else?
    Mr. Johnson. There is a tremendous amount of collaboration 
that needs to occur, and you have to have those collaborative 
tools that are out there. How many different documents we have 
to go through every day and the analytical tools that could be 
out there to help us provide diffused products and put them 
into an analytic product at the end of the day could be very 
helpful.
    Admiral Atkin. In the essence of time, I will concur with 
my colleagues.
    Ms. Speier. Okay.
    Ms. Mitchell. The only one point I would like to add is we 
also need that ability to go from the high side to the unclass 
side, as well. Our systems need to be able to do that.
    Ms. Speier. All right. Thank you.
    I yield back.
    Mr. Meehan. Thank you, Ranking Member Speier.
    At this point in time, I would like to recognize the 
gentleman from Minnesota, Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Thank you, also, to the witnesses, and thank you for your 
service to the country. You are the unsung heroes. You are the 
guys that don't get the medals or the ribbons, but we 
appreciate all the things that you do and your troops do. So, 
thank you very much for that.
    My quick question is: Admiral, sir, could you please tell 
me what keeps you up at night? What is the main threat to your 
ability to do your job?
    Admiral Atkin. Sir, as you know, right now we don't have 
any imminent threat in the maritime domain. Being the new guy 
on the block, I am still learning quite a bit about what the 
intelligence community for the Coast Guard, the Intelligence 
Enterprise, is working on.
    But I think my biggest concern is two-fold. One, it is the 
safeguarding of the Coast Guard personnel themselves. How do we 
provide the right force protection for those folks and the 
right intelligence support for that force protection? Then the 
next piece would be those transnational threats, whether they 
be criminal or terrorist organizations, and how they are trying 
to get into the country and attack the American people.
    So, not having a specific threat right now. It is really 
trying to identify, working with the colleagues here in DHS but 
across the intelligence community, to identify how they are 
coming into the country and then how to stop that.
    Mr. Cravaack. Thank you, Admiral. I do feel your pain when 
it comes to being the new guy on the block.
    Mr. Johnson, according to TSA, how would--you have kind of 
alluded to it in your opening testimony. Can you kind of 
expound upon that a little bit?
    Mr. Johnson. Yes, sir. We had that closed-door session with 
you a couple of months ago. It continues to be AQAP and threats 
to aviation, followed closely by mass transit and different 
threats that are out there that are being espoused from a 
global threat perspective and providing a regional focus into 
the United States.
    Mr. Cravaack. Thank you.
    Mr. Chaparro, could you kind of allude to it also, as well?
    Mr. Chaparro. The short answer is, my BlackBerry keeps me 
up at night.
    But all kidding aside, ICE has, you know, a very wide 
breadth of things that we cover. It is the violence from drug 
cartels, it is the pedophiles, it is the transnational criminal 
organizations that we investigate, it is the threats in the 
cyber world.
    So I think there are many, many things that we have to 
focus on in order to make sure that our citizens are safe. To 
be honest, I wish it were only terrorism. But it is that and, 
unfortunately, much, much more.
    Mr. Cravaack. Thank you for that. Thank you for being by 
your BlackBerry.
    Ms. Mitchell, could you expound, as well?
    Ms. Mitchell. Sure. Thanks.
    I think for CBP the biggest thing that we are concerned 
with is kind of the unknowns. We believe we have a good handle 
on identifying those that we know are bad, but to ensure that 
our systems also have that predictive modeling capability that 
allows us to pick up on those travel patterns that should be of 
concern, kind of picking up on the clean skins.
    Also, the impact of global security, that we are partnering 
with a lot of the foreign governments to ensure that they are 
picking up on that same thought process for targeting as we 
have here.
    Mr. Cravaack. Have you found the international community to 
be assisting you on that quite a bit, or is it more of a 
challenge?
    Ms. Mitchell. I think, as they are finding that they, 
themselves, are targets, as well, and we can show some success 
stories in our targeting methodology, they are becoming much 
more willing partners.
    Mr. Cravaack. Okay. Thank you.
    Ms. Wagner.
    Ms. Wagner. I think, listening to what everyone else has 
said, I think the one thing that keeps me up at night the most 
is having there be an attack on the homeland and discovering 
that we had data in the Department that was relevant to it.
    That is why I focus so much of my efforts on trying to make 
sure that we have the procedures in place to make sure that we 
are tapping every piece of information that we have, so that I 
hope never to be in that position.
    Mr. Cravaack. I hope you never are, as well, ma'am.
    Two years ago, Secretary Napolitano asked the I&A to 
coordinate with the DHS in interaction with State and local 
fusion centers, where--you know, a lot of the genesis comes 
from the boots-on-the-ground level. I am from Minnesota. 
Because of an alert pilot that was giving instruction to a guy 
who wanted to take off in a 747--not know how to land, just 
wanted to be able to fly the plane--that is how some critical 
information could have flowed up the chain of command.
    Would you just kind of please update us on that progress?
    Ms. Wagner. I think we have made a great deal of progress 
in the last few years in building a network of National fusion 
centers that share information both upwards with the National 
intelligence and law enforcement communities and sideways with 
each other, which is a really important regional aspect of 
this.
    What we are trying to do, both in I&A--but I&A basically is 
leading the efforts of the Department that includes all of the 
component participation--is to provide information, training, 
anything that we can do to help the fusion centers achieve a 
level of ability to analyze their own information, report on 
it, and understand what information is valuable to others so 
that it can be effectively shared.
    We have IOs, intelligence officers, out at all the fusion 
centers. There is also component representation at many of 
them. We provide training courses in writing, reporting, 
protecting civil rights and civil liberties. I think that we 
are seeing from most of the fusion centers improved levels of 
situational awareness and products coming out of them. We have 
a great interchange with them on a daily basis.
    We are focusing on implementing, with the Department of 
Justice, the National Suspicious Activity Reporting Initiative. 
The fusion centers are a key element of that.
    The Secretary has also been, as I am sure you are aware, 
promoting the ``See Something, Say Something'' campaign. That 
is a way for us and the fusion centers then to leverage the 
American public to be on the lookout for information, behaviors 
that might potentially allow us to detect and disrupt 
activities.
    So, between the ``See Something, Say Something'' campaign 
and the National Suspicious Activity Reporting Initiative that 
is feeding both us and the FBI's eGuardian system and just the 
constant interaction that we have, I think we are in a very 
good position to use those guys as the first line of defense in 
detecting and deterring homegrown violent extremism.
    Mr. Cravaack. Thank you very much, ma'am.
    I am over my time, sir. I apologize. I will yield back.
    Mr. Meehan. Thank you, Mr. Cravaack.
    Now the Chairman would recognize the gentleman from Arizona 
for 5 minutes of questioning, Mr. Quayle.
    Mr. Quayle. Thank you, Mr. Chairman.
    Under Secretary Wagner, we hear a lot about the need to 
improve the level of information sharing between the various 
Federal agencies, but we don't often hear about how that is 
done within each individual department. So, at DHS, what are 
you doing to improve kind of the intelligence collaboration and 
information sharing within the DHS Intelligence Enterprise?
    Ms. Wagner. Well, actually, we are doing multiple things, 
because there is not a single silver bullet to solve 
information sharing or communications.
    So we start with the Homeland Security Intelligence Council 
that we discussed earlier. These are some of the key members. 
We meet regularly on a monthly basis in person, we have weekly 
teleconferences to make sure that we are all on the same page 
about the emerging threats and any other things that we are 
trying to address collaboratively.
    But, at the same time, we have multiple daily levels of 
interaction. For example, these folks have representatives on 
the DHS Threat Task Force, which is, again, keeping everybody 
up to speed on emerging and evolving threats. Our analysts work 
together on a daily basis to produce joint products, some of 
which go in the Secretary's daily briefing book, many of which 
are shared with our State and local partners and with the rest 
of the intelligence community.
    So it is multiple interactions across the board. We also 
work closely on collection requirements, as well as on analysis 
and on developing analytic tools.
    So I can't even discuss all the levels of interaction there 
are, but we have been trying to significantly improve the 
cooperation and the communication, and I think we have made a 
lot of progress.
    Mr. Quayle. Great. Thank you.
    Mr. Chaparro, you said the drug cartel activities have been 
keeping you up at night sometimes. What are we doing from an 
intelligence standpoint to able to apprehend and to make sure 
that we are not seeing these drug cartels continue to move 
across our border?
    Mr. Chaparro. I think, as we have seen the drug cartel 
threat and violence evolve, particularly in Mexico but 
elsewhere as well, I have seen a higher level of emphasis 
placed by the larger intelligence community. I would say very 
candidly that they are being very responsive to our requests 
for information and support.
    It is a strain. I know that we have wars going on in Iraq 
and Afghanistan, and the intelligence community is stretched 
very thin. But this is a threat this is very close to home, and 
it impacts our communities tremendously.
    So we are doing everything that we can possible from a law 
enforcement perspective to bring the cartel members to justice 
but also to make sure that information that is coming out of 
our operations, as we understand the cartel structure--where 
they are operating, how they are operating, how they are 
communicating--we are making sure that we are passing that 
information to the intelligence community to help them better 
sharpen their focus, as well.
    Mr. Quayle. What is the ability to work with your 
counterparts on the Mexican side? Has that been fruitful? Have 
you been able to glean a lot of information and have a fairly 
good working relationship with them?
    Mr. Chaparro. I have been in this business a long, long 
time, and, in all honesty, I think the cooperation has never 
been stronger. I think, for example, when Special Agent Jaime 
Zapata was murdered in Mexico last February, the support that 
we received from the Mexican government as well as the U.S. law 
enforcement intelligence community was just unprecedented.
    So, the cooperation is good. You can always build and make 
things better, but I have never seen it as good as it is today.
    Mr. Quayle. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Meehan. Thank you. Thank you, Mr. Quayle.
    I hope that I might ask just one more round of questions 
myself, and the Ranking Member may have a few questions.
    Ms. Wagner, this sort of may seem counterintuitive because 
we spend a lot of time, in the intelligence field, trying to 
develop as much information as we can on emerging threats, 
which means we develop a lot of information about a lot of 
things, a lot of people. You are building a sophisticated 
network with fusion centers that are touching each and every 
one of our communities, and we have a broad spectrum of 
agencies that are simultaneously participating. So, within our 
treasure trove of information, there is information about a lot 
of people, including American citizens, among others.
    You know, in my own State of Pennsylvania, before I was 
elected, but I was very aware of information that was developed 
by one of our entities that was let out into the mainstream to 
the benefit of somebody that was really--it was a private 
entity that took advantage of that intelligence information.
    What are we doing to assure that the civil liberties and 
privacy protections are in place so that we access information 
appropriately but guard against inappropriate uses of that 
information?
    Ms. Wagner. Thank you for that question, because that is 
something that we focus on a lot.
    For all of us who are sort of intelligence activities, we 
have intelligence oversight that is embedded in our 
organizations. You know, it flows from the Executive Order 12-
333 and the guidelines within which we operate. So we have 
pretty well-defined ways of training our people, of double-
checking to make sure that we are following the rules, and 
periodically going through all of our reports and seeing how we 
are doing.
    For the National network of fusion centers, this is a new 
world in which they are operating. So we have focused a lot of 
time and effort and resources on training them to understand 
the rules regarding privacy and civil rights and civil 
liberties and Constitutionally-protected activities.
    We have worked with them to ensure that every fusion center 
has a privacy policy in place. We work with them to make sure 
that those are adequate, that everyone who is in the fusion 
center has been trained on what is in those policies, and that 
those policies are being followed.
    We work very closely with our civil rights and civil 
liberties office to provide training teams out to the fusion 
centers to make sure that they are fully trained on all the 
same things that we all have grown up----
    Mr. Meehan. Do they then take that and reach out, as well, 
within their communities to local police and otherwise?
    Ms. Wagner. Yes, they do. So I am confident that we are 
very much leaning forward to build in protection of privacy, 
civil rights, and civil liberties at the front end of all of 
our engagements with the fusion centers and in all of the 
products that we are putting out.
    Mr. Meehan. Thank you for that and for your work on that. 
It is very, very vitally important, I think, as part of our 
mission, and often overlooked.
    Mr. Chaparro, you touched on a variety of things. As a 
former United States attorney, I used to stay up at night 
thinking about a lot of different issues and always, you know, 
is there something we could be doing better?
    You touched on one area in which agencies like yours might 
be the only people that have an opportunity to reach out and be 
a lifeline to some victims who live a horrible existence, and 
these are these victims of human trafficking go and others who 
are then put down into the system. How are we doing in that 
battle?
    Mr. Chaparro. I think that human trafficking is an area 
where ICE has really stepped out in front to take a leadership 
role in not only rescuing victims but aggressively going after 
and prosecuting the horrific criminals that commit these 
crimes.
    But, equally important, we have victim witness assistance 
coordinators in every single one of our field offices to ensure 
that the victims of human trafficking are able to get the help 
that they need in order to be able to recover.
    Similarly, we are working very closely with the community 
organizations, the nongovernmental organizations, and we are 
working both domestically and overseas to combat human 
trafficking.
    Mr. Meehan. How about with our local police departments and 
others? Because one of the things that used to be of concern to 
me is that you would often have local police departments that 
might come in, make an investigatory stop, look at somebody, 
realize, ``Well, this is an immigration violation but not 
necessarily worth my making an arrest for some particular 
purpose,'' but they are looking past signals that may indicate 
that there is something more going on.
    Are we training local police to be able to identify the 
signs, to ask the appropriate questions, and then to come back 
to experts like you or partners?
    Mr. Chaparro. Absolutely. A big part of our efforts is the 
outreach that we do, including working in local human 
trafficking task forces around the country so that, as local 
authorities, as you said, identify signs that may be an 
indicator, they know to ask the right question, they know to go 
that step further. The outreach that we have is both in terms 
of formal training as well as various conferences, passing out 
brochures. Then there is no substitute for working hand-in-hand 
on the local task forces so that they can really understand 
what it is that they face.
    Oftentimes, the signs are very hard to detect. The victims 
are often very scared to come forward. It really takes a lot of 
work sometimes to undercover these violations.
    Mr. Meehan. Thank you. My time has expired.
    I will turn it to the Ranking Member, Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    I, too, have an abiding interest in the whole human sex-
trafficking issue, so much so that I convened a workforce 
locally and have had the district attorneys, the U.S. attorney, 
the FBI, local police, all part of a training. We have met now 
five or six times. There was an all-day training just a couple 
weeks ago.
    But I will tell you this, that we really have just 
scratched the surface. While we may on a Federal level make 
resources within your jurisdiction available, we need to do 
much, much more.
    Just in the short time that we have been working on this 
issue, our local DA has gone back and recognized that two 
domestic violence complaints that came in on the same person 
with different complainants turned out to be a sex trafficker. 
It didn't dawn on him until he had started participating in 
this program.
    So I bring it up only because I think we need to do more. I 
know that you are already taxed, but it is a horrific problem. 
The sex trafficking of those under the age of 18 is somewhere 
close to 300,000 in this country alone. So I hope that we can 
see new initiatives come out from within your various agencies 
to help in that regard, as well.
    I have just one last question. It would appear, based on 
what we have been able to glean from the information that bin 
Laden had in his Abbottabad location, that rail was a very 
interesting target for them. I happen to have traveled with my 
daughter over spring break on a college tour along the East 
Coast, and we did it by train. I thought about it a lot, 
because I think the trains are incredibly porous. I don't know 
what we have under way to try and address that issue, but I 
think that it is just ripe for some kind of an attack that will 
come from a lone wolf who is, you know, homebound right amongst 
ourselves.
    So if any of you have any thoughts that we would like to 
share with us on what we can or should be doing relative to 
rail, I would appreciate hearing it.
    Ms. Wagner. I will just say one thing and then turn it over 
to Dan, since it is a TSA issue, just to say that we have 
obviously known, based on looking at events overseas, that rail 
has been a target of interest to terrorists and al-Qaeda 
affiliates if we just look at what has happened in London and 
Madrid and Moscow.
    So we have been publishing on the tactics and techniques 
that have been used in these attacks on rail to our law 
enforcement and public-sector partners to help them think 
through the appropriate protective measures for some time.
    But I will turn it over to Dan for any specifics.
    Mr. Johnson. We have specific analysts that look at rail 
specifically and also passenger rail, freight rail. They do 
annual assessments, both at the classified and unclassified 
level. It probably would be better if we went ahead and we had 
a closed-door session and walked you through the classified 
findings that we have within the rail assessments that we have 
out there, especially in light of bin Laden's roll-up.
    Ms. Wagner. We want you to feel confident that we have been 
looking at this for quite a while.
    Mr. Johnson. Absolutely.
    Mr. Meehan. Well, I want to express my deep appreciation to 
this very, very distinguished panel, first, for your patience; 
second, for your excellent testimony and the preparation that 
went into it; but, last and most importantly, for your service. 
I think all of us appreciate that you are on the front line, 
and you are on a front line in what is now a very precarious 
time for our country. Yet, at the same time, you know, I don't 
like to be alarmist because I think the work that you are doing 
is making a big difference.
    We have seen, over the course of the last year, an increase 
in real threats to our Nation, but simultaneously, if you were 
to have looked at this 10 years ago from September 11 and had 
predicted what may have been, I think there are few who would 
argue that we have not been vigilant and had some genuine 
successes. But no one goes to sleep at night and says, ``Okay, 
because tomorrow is another day, and I know it is not on my 
watch.''
    So I want to thank you for your work, but more important, 
your service to our Nation.
    The Members of the committee may have some additional 
questions. I hope that if they do those that you will do your 
best to be as responsive as can you in writing. The hearing 
record will be open for 10 days.
    So, without objection, the subcommittee stands adjourned. 
Thank you.
    [Whereupon, at 4:13 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
